                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

        Case Number: I04050017                                                                    Page 1 of 1
                                                                                                       i
                                                                                                       /I
                                                                                                                       I
          The National Science Foundation mSF). Office of h s ~ e c t o General
                                                                          r      (OIG) initiated an investigation
          into a university1facilitq because article in                                        indicated that there    11
          were significant problems with'the facility's financial management of funds from another federal
          agency.4 Specifically, the article indicated that a significant amount of awarded funds were being
          auditeds, and as a result, the other agency withheld its 2004 award m ~ n i e s . ~

          We determined that at the time in question, the facility had received two awards from NSF, one for
          $        and one for $        . We requested the financial and supporting documents for the two
          NSF awards. During the course of our investigation, we discovered that the university had taken steps
          to remove the personnel responsible for financial management issues identified and to alter its policies
          and procedures to prevent similar future problems; however, we were still concerned that NSF funds
          had been mismanaged.

          After reviewing the documents and requesting additional information from the university, we
          discovered that the university did not appear to have time and effort reports to support all of the salary
          and fringe benefits charged to the smaller award. We also determined that the facility had incorrectly
          charged administrative personnel directly to the NSF award. We asked the university to review its
          records and calculate how much salary and other costs were unsupported and to noti@ us how it
          intended to resolve the issue. The university ultimately decided to return funds to NSF.~There are not
          any remaining issues with regard to this investigation,
                                                                                                   1
                                                                                                       I
                                                                                                       I)




                    Accordingly, this case is closed.




   I'
NSF OIG Form 2 (1 1/02)
                                                                                                                       '11
